           U.S. Department of
                                                         Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Report on Actuarial Estimates for                    Date:    January 22, 2003
           Retired Pay and Medical Benefits, U.S. Coast Guard
           FI-2003-014
                                                                          Reply To
  From     Alexis M. Stefani                                               Attn Of:   Meche:x61496
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Chief of Staff
           U.S. Coast Guard

           This report provides the study results of the U.S. Coast Guard actuarial model for
           estimating liabilities for retired pay and medical benefits. The study was conducted
           by the Hay Group, under contract with the Office of Inspector General, as part of our
           audit of the Department of Transportation Fiscal Year (FY) 2002 Consolidated
           Financial Statements.

           The principal objective of the study was to determine whether the methodology the
           Coast Guard contractor used to calculate liabilities and annual actuarial activity of
           the Coast Guard military retirement system was reasonable and reliable as of
           September 30, 2001. FY 2001 data are used because the data represented the most
           current full year of data for estimating the FY 2002 military retirement liabilities.

           The Hay Group concluded liabilities and annual actuarial activity of the Coast Guard
           were reasonable and reliable as of September 30, 2001. The Coast Guard properly
           reported military retirement liabilities of $29 billion as of September 30, 2002.

           No response to this report is required. The study documents are voluminous and
           will be provided upon request.

           We appreciate the assistance and cooperation of Coast Guard and contractor
           representatives. If you have questions, please call me at (202) 366-1992, or
           John Meche at (202) 366-1496.


                                                    #
